2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 20-257
CHIPOTLE MEXICAN GRILL, INC., et al.,
Petitioners,
V.

MAXCIMO SCOTT, et al.,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the RESPONDENTS' BRIEF IN
OPPOSITION in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.l(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 7943 words, excluding the parts that are exempted by Supreme
Court Rule 33.l(d), as needed.

Subscribed and sworn to before me this 2nd day of November, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

NEAAL NOTARY-State of Nebraska
RENEE J, GOSS

My Ccmm. Exp. September 5, 2023

Affiant

40240

